GENERAL SERVICES ADMINISTRATION
OFFICE OF INSPECTOR GENERAL




         REVIEW OF THE GREATER SOUTHWEST REGION
                 PUBLIC BUILDINGS SERVICE
          EL PASO SERVICE CENTER’S PROCUREMENTS
              REPORT NUMBER A070150/P/7/R08001

                    NOVEMBER 29, 2007
                       U.S. General Services Administration
                       Office of Inspector General




Date:      November 29, 2007

Reply to
Attn of:   Regional Inspector General for Auditing
           Greater Southwest Region (JA-7)

Subject:   Review of the Greater Southwest Region
           Public Buildings Service
           El Paso Service Center’s Procurements
           Report Number A070150/P/7/R08001

To:        Scott Armey
           Regional Administrator (7A)
           James S. Weller
           Assistant Regional Administrator
           Public Buildings Service (7P)


This report presents the results of the Office of Inspector General’s review of the
Greater Southwest Region (GSWR) Public Building Service (PBS), El Paso Service
Center’s procurements.       Contracting officials of the PBS Acquisition Services
Operations Branch Border Section were responsible for procuring the majority of the
services over the micro-purchase threshold while the El Paso Service Center building
management specialists were responsible for and made most procurements within the
micro-purchase threshold 1 .

The building maintenance and cleaning services contractor for various buildings and
border stations managed by the El Paso Service Center was Ben Fitzgerald Real Estate
Service, LLC, doing business as Rosemark Facilities Management (Rosemark). Part III,
Section J, Exhibit 1, Paragraph 11 of Rosemark’s contract allows for awards up to
$25,000 for repairs without competition.




1
  The micro-purchase threshold for supplies, equipment, and some services is currently $3,000 and
$2,000 for contracts involving construction, alteration, or repair of public buildings or public works. Prior
to September 28, 2006, the micro-purchase threshold for supplies, equipment, and some services was
$2,500.

                                                      1
Objective, Scope, and Methodology
The objective of the review was to determine whether the El Paso Service Center made
procurements in accordance with procurement laws and regulations and General
Services Administration (GSA) policies and procedures. If not, why not?

To accomplish our objective, we:
         Obtained a listing of credit card purchases totaling $132,484, and monthly
          credit card logs for the period October 1, 2005, through March 31, 2007;
         Calculated the distribution percentage of credit card purchases made to all
          vendors;
         Identified the three vendors whose micro-purchases represented about
          $90,460, or about 79.7 percent of the total micro-purchases per the credit
          card purchases listing;
         Reviewed the underlying support of all micro-purchases for the three vendors
          to determine compliance with Federal Acquisition Regulations (FAR) and
          GSA policies and procedures;
         Reviewed the supporting documentation for 30 procurements over the micro-
          purchase threshold valued at $244,736 for the period October 1, 2005,
          through March 31, 2007, for the same three vendors;
         Reviewed the terms and conditions (T&Cs) of the El Paso Service Center’s
          Mechanical Operation/Maintenance Service and Performance-Based
          Custodial Services Contract (Building Maintenance Contract), Contract
          Number GS-07P-02-UHC-1004; and
         Interviewed the contracting officials to obtain an understanding of
          procurement procedures and specific details of selected procurements.

The audit was conducted in accordance with generally accepted government auditing
standards.

Results of Review
Although we found the El Paso Service Center’s micro-purchases, valued at about
$90,460, were in compliance with procurement regulations and GSA policies and
procedures, procurements over the micro-purchase threshold, valued at about
$244,736, were generally not compliant with procurement laws or the T&Cs of the
Building Maintenance Contract. We found 25 of 30 procurements over the micro-
purchase threshold had compliance issues. Specifically, four of eight procurements
awarded using simplified acquisition procedures were not fully compliant with
procurement regulations. In addition, 21 of 22 procurements awarded on the basis of
the repair clause were not compliant with all T&Cs of the Building Maintenance
Contract.




                                          2
Finding – Purchases Over Micro-purchase Threshold
The GSWR’s Border Section procurement officials did not fully comply with FAR or the
T&Cs of the El Paso Service Center’s Building Maintenance Contract when procuring
services over the micro-purchase threshold. As a result of non-compliance with FAR
and the T&Cs of the Building Maintenance Contract, the Government may not have
received best value.

Simplified Acquisition Procedures - The Border Section procurement officials awarded
eight procurements over the micro-purchase threshold using simplified acquisition
procedures and four were not fully compliant with FAR. Specifically, procurement
officials did not: (1) solicit competition in accordance with FAR 5.101(a)(2), for
construction services; (2) obtain funding approval prior to contractor performing services
as required by FAR 1.602-2(a); (3) demonstrate anticipated costs to the Government
were fair and reasonable in accordance with FAR 6.303-2(a)(7) for a sole source award;
(4) include mandatory clauses for construction services contracts required by FAR
22.407; and (5) issue a written solicitation for construction services over $2,000 as
required by FAR 13.106-1(d). Furthermore, we found a credit cardholder with micro-
purchase authority that procured construction services that exceeded the micro-
purchase threshold as defined by FAR 2.101.

Building Maintenance Contract - The Border Section procurement officials awarded 22
procurements based on Part III, Section J Exhibit 1, Paragraph 11 of the Building
Maintenance Contract and 21 were not fully compliant with all the T&Cs of the Building
Maintenance Contract. Specifically, the procuring officials did not document on the
GSA Form 300: (1) the description of services being procured; (2) the maximum number
of hours and amount of material costs for which the contractor would be compensated;
and (3) a ceiling amount that may not be exceeded without the written approval of the
contracting officer’s representative (COR). Furthermore, the COR did not: (1) obtain an
itemized written estimate of the labor hours and the cost of parts and materials, which
may be required to complete the repair; and (2) ensure the contractor maintained a log
showing each person involved in repairs.

Furthermore, three procurements were outside the scope of the Building Maintenance
Contract repair clause. These procurements were for repairs and alterations of floors or
wall coverings, which are specifically excluded from the repair clause. Part III, Section
J, Exhibit 1, Paragraph 14 of the Building Maintenance Contract in part states, “... The
repair of roofs, wall and floor coverings are excluded from this contract.”

Other Matters
While not material in terms of dollars, we noted for the review period approximately 80
percent of the micro-purchases made by credit cardholders was directed to three
contractors without competition. Further, a company owned by the nephew of an El
Paso property manager, received 33 percent of these purchases. There is an
appearance the El Paso Service Center may be giving preferential treatment to these
three contractors.


                                            3
FAR 3.101-1 in part, states, “Government business shall be conducted in a manner
above reproach and, except as authorized by statute or regulation, with complete
impartiality and with preferential treatment for none. Transactions relating to the
expenditure of public funds require the highest degree of public trust and an impeccable
standard of conduct. The general rule is to avoid strictly any conflict of interest or even
the appearance of a conflict of interest in government-contractor relationships.”
According to procuring officials, the pool of contractors performing services under the
micro-purchase threshold is limited because: (1) it may take up to six months to obtain
contractor security clearances; (2) these contractors are familiar with the buildings in
cases of emergency repairs; (3) these contractors are willing to accept work in remote
locations; and (4) GSA customers with security concerns prefer the same contractors in
their buildings. In addition, the procuring officials informed us measures were being
taken to increase the pool of contractors performing work at the micro-purchase level in
order to eliminate or decrease the appearance of preferential treatment. Further, the
Acquisition Director informed us a regional policy would be issued addressing the roles
and involvement of PBS associates when familial relationships exist.

Conclusion
Although the non-compliant procurements have a small dollar value, we believe the
number of procurements in non-compliance with FAR or contract T&Cs should be a
matter of concern to management. In accordance with Office of Management and
Budget Circular A-123, management is accountable for assuring programs are
managed in compliance with applicable laws and, in doing so, should establish
management controls to reasonably ensure laws and regulations are followed. The
regional PBS Acquisition Services Operations Branch should consider making site visits
to other Service Centers within the GSWR to determine if these procurement issues are
isolated to the El Paso Service Center, or if the problem is pervasive.

Recommendations
We recommend that the Assistant Regional Administrator, Public Buildings Service,
require the Acquisition Director to:
     1a.     Develop training for procuring officials to ensure:
                Procurements of construction services over $2,000 meet FAR
                 requirements;
                Costs anticipated for sole source awards are fair and reasonable;
                Credit cardholders do not exceed their micro-purchase authority; and
                Procurements awarded on the basis of the Building Maintenance
                 Contract repair clause, if any, meet the T&Cs;
     1b.     Develop and implement polices and procedures to ensure funding
             approval is obtained before work is performed; and
     1c.     Ratify the transaction made by the cardholder that exceeded his micro-
             purchase procurement authority.

                                            4
APPENDIX A

Summary of Procurement Irregularities
                                                                                        Contract
                                                                             Invoice     Repair
 Contract Number         Contractor          Description of Services          Amts      Services   Notes
GS07P05UKM3031           Rosemark        Install new compressor               $9,000.00   Yes        1
GS07P05UKM3032           Rosemark        Repair Energy MGT System              3,750.39   Yes        1
GS07P05UKM3076           Rosemark        Install 4' valve                      9,600.00   Yes        1
GS07P05UKM3073           Rosemark        Replace 6 bullet resistant glass      8,032.00   Yes        1
GS07P05UKM3081           Rosemark        Remove, install water Heater          6,890.45   Yes        1
GS07P05UKM3080           Rosemark        Concrete repair gas valves            8,220.00   Yes        1
GS07P05UKM3086           Rosemark        Replace existing sidewalk             5,500.00   Yes        1
GS07P05UKM3096           Rosemark        Window Cleaning                       3,150.00   Yes        1
GS07P06UKM0049           Rosemark        Install judge's carpet               15,024.00   Yes       1,2
GS07P06UKM0022           Rosemark        Replace gas line                     21,597.00   Yes        1
GS07P06UKM0039           Rosemark        New fire sprinkler heads              2,491.14   Yes        1
GS07P06UKM0046           Rosemark        Installation of HVAC (to 100%)       21,428.00   Yes        1
GS07P06UKM0106           Rosemark        Clean, dust, window blinds            6,645.08   Yes
GS07P06UKM0126           Rosemark        Replace K-9 kennel door               5,850.00   Yes        1
GS07P06UKM0132           Rosemark        Replace electric water coolers        5,895.02   Yes        1
GS07P06UKM0136           Rosemark        Install 4-ton rooftop HVAC            6,727.15   Yes        1
GS07P06UKM0138           Rosemark        Paint 8,216 sq ft. at Col. POE        8,855.39   Yes       1,2
GS07P06UKM0158           Rosemark        Remove & Install 30 ton HVAC         14,100.94   Yes        1
GS07P07UKM0049           Rosemark        Pump Replacement                      8,119.00   Yes        1
GS07P06UKM0039           Rosemark        Install gas line                      8,820.00   Yes        1
GS07P06UKM0038           Rosemark        Install carpet Modified               7,467.60   Yes       1,2
GS07P-6UKM0138           Rosemark        Ceiling Repair                        6,727.15   Yes        1
GS07P05UKM3038            Rosemark       Patch holes, power wash, etc.         6,025.00   No
GS07P05UKM0138            Rosemark       Install 5 ton HVAC unit               7,825.00   No
GS97P05UKM0001             Yucca         Repair fence and gate                 4,495.00   No
GS07P06UKM0137             Yucca         Replace rock/Landscape                9,500.00   No
GS07P06UKC0019             Yucca         New window shutters                  13,950.00   No        3
Credit Card Purchase       Yucca          Install eyewash                      3,475.00   No         4
Credit Card Purchase Federal Construction Electrical work                      3,448.00   No       4,5,6
Credit Card Purchase     Rosemark         Extend ductwork                      2,127.50   No        4,7
                                          Total                             $244,735.81

Auditor’s Notes:
1. Procurement was awarded based on Part III, Section J, Exhibit 1, Paragraph 11 of
   the Building Maintenance Contract and did not comply with all the T&Cs.
       a) The COR did not obtain a proposal breaking down the number of hours and
          material costs as required by Part III, Section J, Exhibit 1, Paragraph 11C(3),

                                               A-1
          which states, in part, "…The Contractor shall furnish the COR with an
          itemized written estimate of the labor hours and the cost of parts and
          materials which may be required to complete any repair in this category."
      b) The COR did not ensure the contractor maintained a log showing persons
         involved in repairs as required by Part III, Section J, Exhibit 1, Paragraph
         11C(4), which states, "When authorized to perform a repair within this
         category, the Contractor shall ensure that each person involved in the repair
         signs in and out on a log established for that purpose by the COR."
      c) The CO did not document the description of services being procured, the
         maximum number of hours and material costs, or the ceiling amount on the
         GSA Form 300, Order for Supplies or Services, in accordance with Part III,
         Section J, Exhibit 1, Paragraph 11C(5), which in part states, "…The GSA
         Form 300 will describe the service to be provided and will establish the
         maximum number of hours and amount of material costs for which the
         Contractor will be compensated. The ceilings specified in the GSA Form 300
         may not be exceeded without the written approval of the COR."
2. Procurement for repair of floor or wall coverings was awarded based on Part III,
   Section J, Exhibit 1, Paragraph 14, Architectural/Structural Maintenance Clause.
   Repairs of floor and wall coverings are specifically excluded from the Building
   Maintenance Contract, Paragraph 14, which in part states, "...The repair of roofs,
   wall and floor coverings are excluded from this contract. …”
3. CO did not disseminate information on proposed contract action in accordance with
   FAR 5.101(a)(2). The contracting officer prepared a written solicitation as required in
   FAR 13.106-1(d), obtained an independent government estimate for $16,862.84
   prior to soliciting bids, and solicited only three bids. However, FAR 5.101(a)(2)
   states, “For proposed contract actions expected to exceed $10,000, but not
   expected to exceed $25,000, by displaying in a public place, or by any appropriate
   electronic means, an unclassified notice of the solicitation or a copy of the
   solicitation satisfying the requirements of 5.207(c).”
4. Contract action did not include mandatory clauses for construction services over
   $2,000 as required by FAR 22.407.
5. Contract action was awarded sole source; however, the CO did not demonstrate
   anticipated costs to the Government were fair and reasonable per FAR 6.303-
   2(a)(7).
6. Contract action did not have funding approval before the work was performed as
   required by FAR 1.602-2(a). A review of the procurement file showed the work
   appeared to have been performed before funds were obligated. The invoice was
   dated September 6, 2005; GSA Form 49 dated September 12, 2005; GSA Form 300
   (Order of Supplies or Services) dated September 16, 2005; and credit card payment
   September 16, 2005. Procurement of goods and services before having funding
   approval puts GSA at risk of being anti-deficient.
7. Credit cardholder with micro-purchase authority exceeded this authority by
   purchasing construction services over $2,000. The contractor proposed and invoiced

                                           A-2
parts and materials, labor, and general and administrative amounts totaling
$2,127.50 for ductwork on a federal building. Ductwork is a construction service
subject to the Davis-Bacon Act.          Consequently, this construction service
procurement should have been competed per FAR 13.106-1(d), requiring a written
solicitation for construction services exceeding $2,000.      Further, since the
procurement exceeded the micro-purchase threshold authority of the cardholder, the
procurement should be ratified in accordance with FAR 1.602-3(a).




                                     A-3
APPENDIX B

Management’s Written Response




                                B-1
B-2
B-3
B-4
APPENDIX C

Report Distribution

Administrator, Greater Southwest Region (7A) ................................................................. 3

Assistant Regional Administrator, Public Buildings Service (7P)....................................... 1

Director, Acquisition Services (7PM) ................................................................................. 1

Assistant Inspector General for Auditing (JA & JAO) ........................................................ 2

Audit Follow-Up Evaluation Branch Chief (BECA) ............................................................ 1

Deputy Assistant Inspector General for Auditing (JA-A).................................................... 1

Deputy Assistant Inspector General for Auditing (JA-R).................................................... 1

Special Agent in Charge (JI-7) .......................................................................................... 1




                                                          C-1
